           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




     BROOKLYN SOCIAL SECURITY
   CARD CENTER’S COMPLIANCE WITH
      POLICIES AND PROCEDURES
          WHEN PROCESSING
     NONCITIZEN SOCIAL SECURITY
        NUMBER APPLICATIONS

     August 2004   A-08-04-14061




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:


   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY

MEMORANDUM

Date:   August 30, 2004                                                                            Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Brooklyn Social Security Card Center’s Compliance with Policies and Procedures When
        Processing Noncitizen Social Security Number Applications (A-08-04-14061)


        OBJECTIVE

        Our objective was to evaluate the Social Security Administration’s (SSA) compliance
        with policies and procedures when processing noncitizen Social Security number (SSN)
        applications at the Brooklyn Social Security Card Center (BSSCC).

        BACKGROUND

        BSSCC Is the First SSA       In November 2002, SSA established a pilot center in
        Pilot Office to              Brooklyn, New York – the BSSCC – that specializes in
        Specialize in                enumeration.1 BSSCC is the only location where
        Enumeration                  residents of Brooklyn, both United States citizens and
                                     noncitizens, can apply for an original SSN. When a
                                     noncitizen applies for an original SSN,2 he or she must
        complete, sign and submit a Form SS-5, Application for a Social Security Card, to SSA
        and provide acceptable documentary evidence of (1) age, (2) identity, and (3) work




        1
         SSA refers to the process of assigning original SSNs and issuing replacement SSN cards as
        enumeration.
        2
         Noncitizens who apply for SSNs through the Enumeration at Entry (EAE) program are subject to
        different application policies and procedures. Under EAE, the Department of State (State) and the
        Department of Homeland Security (DHS) collect and transmit to SSA application data as part of the
        immigration process.
Page 2 – The Commissioner

authorized lawful alien status and/or a valid nonwork reason.3 Almost 9 out of every
10 applications for original SSNs at the BSSCC are from noncitizens. In
Fiscal Year 2003, SSA assigned over 26,000 original SSNs to noncitizens who applied
at the BSSCC. Appendix B provides a detailed description of how SSA assigns original
SSNs to noncitizens.

Because of SSN integrity concerns, SSA reevaluated its policies and procedures for
assigning SSNs to noncitizens. Accordingly, SSA personnel now verify noncitizen
evidentiary documents with the Department of Homeland Security (DHS) and/or the
Department of State (State) before SSN assignment.4 In addition, personnel record a
description of noncitizens’ immigration documents and the verification of these
documents on the SSN application. This information serves as an audit trail by
documenting SSA personnel’s actions taken during SSN application processing.

To accomplish our objective, we reviewed SSA policies and procedures for assigning
original SSNs to noncitizens.5 To evaluate BSSCC compliance with these policies and
procedures, we identified a population of 2,502 noncitizens to whom SSA assigned
original SSNs in March 2003 based on applications processed at the BSSCC. We then
randomly selected and reviewed a sample of 100 SSNs. We also visited the BSSCC to
meet with management and staff and observe personnel processing SSN applications.
Appendix C includes a detailed description of our scope, methodology and sample
appraisal.

RESULTS OF REVIEW
Although SSA has instituted numerous policies and procedures designed to prevent
                                improper SSN assignment, they can only be effective if
 BSSCC Personnel Did Not        personnel processing SSN applications comply with
 Fully Comply with Policies     the controls. We estimate that BSSCC personnel did
                                not fully comply with policies and procedures in about
 and Procedures in About
                                15 percent of the noncitizen SSN applications they
 15 Percent of the
                                processed during March 2003. The most common
 Noncitizen SSN
                                occurrence of noncompliance was BSSCC personnel’s
 Applications Processed
                                failure to document the verification of immigration
                                status with DHS. Although our review did not identify
any noncitizens who inappropriately obtained an SSN, we are concerned that failure to
comply with policies and procedures may increase the Agency’s risk of exposure to
improper SSN assignment and misuse, and identity theft. To help ensure BSSCC
compliance, we believe SSA should consider enhancing controls within the Modernized


3
    See Program Operations Manual System (POMS) sections RM 00202.001A and RM 00203.001C.
4
    SSA fully implemented this policy in September 2002 (Policy Instruction EM-02091).
5
 Policy Instruction EM-02091 contains basic instructions for DHS verification and POMS, section
RM 00200 et. seq., contains general policies and procedures for processing SSNs.
Page 3 – The Commissioner

Enumeration System (MES) that will prevent SSN assignment when personnel have not
adhered to the controls specified in SSA’s policies and procedures.

PERSONNEL DID NOT FULLY COMPLY WITH POLICIES AND PROCEDURES
WHEN PROCESSING NONCITIZEN SSN APPLICATIONS

We estimate BSSCC personnel did not fully comply with SSA policies and procedures
when processing 375 SSN applications for noncitizens in March 2003. This figure
represents about 15 percent of the 2,502 original SSNs the Agency assigned to
noncitizens who applied at the BSSCC during this period.

          Figure 1: Estimated Percentage of BSSCC Compliance with Policies and
                    Procedures When Processing Noncitizen SSN Applications



         2,127 SSNs
                                                                           BSSCC did not comply
            (85%)                                                          with policies and
                                                                           procedures

                                                                           BSSCC complied with
                                                                           policies and procedures




                                                                   375 SSNs
                                                                     (15%)




TYPES OF NONCOMPLIANCE

The most common occurrences of BSSCC personnel’s noncompliance with policies and
procedures were failure to record on the SSN application: (1) evidence of verification of
immigration status with DHS; and (2) the applicant’s nonimmigrant class of admission.
Table 1 shows the specific occurrences of noncompliance we identified.6




6
    SSA identified similar types of noncompliance during Agency reviews conducted in selected regions.
Page 4 – The Commissioner

Table 1: Specific Occurrences of Noncompliance in Sampled Items

                            Characteristics Identified                                 Number of
                                                                                       Instances
Verification of immigration status with DHS not recorded                                    7
DHS class of admission not recorded (nonimmigrants)                                         3
DHS document not recorded                                                                   2
Evidence of age not properly documented                                                     2
SSA employee did not sign the SSN application                                               2
Evidence of lawful noncitizen status was inadequate                                         1
Identification for individual applying on behalf of another not recorded                    1

Number of occurrences identified                                                          18
Multiple occurrences identified (more than one occurrence per case)                        3
Number of SSNs in sample not in compliance with policies and procedures                   15
Percentage of noncompliance cases to sample (15/100)                                      15%

We believe the following instance of BSSCC personnel’s noncompliance with policies
and procedures illustrates SSA’s risk of exposure to improper SSN assignment and
misuse.
      •   A BSSCC employee recorded, on the SSN application, an Immigration and
          Naturalization Service Form I-797A, Notice of Action, as proof of the applicant’s
          noncitizen status. However, this form is not acceptable evidence of noncitizen
          status for SSA purposes.7 Because the employee did not comply with policies
          and procedures, SSA did not have documented assurance of the applicant’s
          noncitizen status.

OPPORTUNITY TO HELP ENSURE COMPLIANCE WITH POLICIES AND
PROCEDURES

When SSA personnel do not fully comply with all policies and procedures for processing
noncitizen SSN applications, the Agency increases its risk of improper SSN assignment
and misuse. While SSA’s MES allows personnel to record evidence reviewed and
accepted, as required by policies and procedures, it does not prevent SSN assignment
when personnel do not enter this information into the system. For example, although
policies and procedures require SSA personnel to record, on the SSN application, a
description of the immigration documents presented and reviewed and DHS verification,
MES does not prevent SSN assignment if they fail to record this information.8



7
    POMS section RM 00203.400B.61.
8
 A recent Government Accountability Office (GAO) study, entitled Social Security Administration: Actions
Taken to Strengthen Procedures for Issuing Social Security Numbers to Noncitizens, but Some
Weaknesses Remain (GAO-04-12, October 2003) pointed out that it is possible for field office staff to
process an SSN application without keying information into MES describing the evidence staff reviewed
and accepted. Under this situation, there is no consistent means for SSA to confirm and review what
verifications field office staff actually performed when they processed an SSN application.
Page 5 – The Commissioner


To help ensure compliance with policies and procedures, we believe SSA should
consider MES enhancements that would prevent SSN assignment when personnel do
not comply with the Agency’s policies and procedures. SSA could incorporate separate
and distinct data fields into MES that would capture specific evidence reviewed and
accepted. That is, SSA could change the MES evidence field from a free-form entry
format to one requiring discrete entries (for example, a noncitizen’s immigration number
and class of admission, and specific immigration documents reviewed and verified with
DHS). We believe MES controls should prevent SSN assignment when personnel do
not enter such information. Such controls would assist SSA personnel through the SSN
application process and help prevent improper SSN assignment.

Management and staff at the BSSCC agreed that MES enhancements, as discussed
above, would assist personnel in complying with policies and procedures. SSA has
discussed plans to modify MES to capture more discrete information about the evidence
submitted during the SSN application process. We understand that such modifications
must be considered as part of the Agency’s information technology prioritization
process. Nevertheless, we encourage the Agency to begin the systems planning
process for MES enhancements.

CONCLUSION
Despite SSA’s safeguards to prevent improper SSN assignment to noncitizens, the
Agency remains at risk to such activity when SSA personnel do not fully comply with
policies and procedures. We recognize SSA’s efforts can never fully eliminate the
potential that noncitizens may inappropriately acquire and misuse SSNs. Nonetheless,
we believe SSA has a stewardship responsibility to ensure that personnel comply with
all policies and procedures. We believe SSA would benefit by taking additional steps to
strengthen SSN integrity and reduce its risk of exposure to improper SSN assignment
and misuse, and identity theft.

In a separate report, we recommended that SSA take additional steps to ensure that
field office personnel comply with policies and procedures when processing noncitizen
SSN applications. Because these recommendations address the noncompliance issues
we identified at the BSSCC, we are not making recommendations in this report.
Appendix D provides the recommendations from our report on field offices’ compliance
with policies and procedures when processing noncitizen SSN applications.

AGENCY COMMENTS AND OIG RESPONSE

SSA stated that because a number of the noncompliance issues identified for the
BSSCC were the same as those identified in the previously mentioned audit report
regarding field office enumeration compliance (Appendix D), the Agency will ensure it
includes the BSSCC in any corrective action activities planned in response to the
recommendations made in that report. The Agency also provided technical comments
Page 6 – The Commissioner

that we considered and incorporated, where appropriate. The full text of SSA’s
comments is included in Appendix E. We believe the Agency’s actions demonstrate its
commitment to strengthen the integrity of the SSN.




                                             S
                                             Patrick P. O'Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – How the Social Security Administration Assigns Original Social Security
             Numbers to Noncitizens

APPENDIX C – Scope, Methodology, and Sample Appraisal

APPENDIX D – Recommendations from our Report Entitled Field Offices’ Compliance
             with Policies and Procedures When Processing Noncitizen Social
             Security Number Applications (A-08-04-14005)

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
ASVI    Alien Status Verification Index
BSSCC   Brooklyn Social Security Card Center
DHS     Department of Homeland Security
State   Department of State
EAE     Enumeration at Entry
GAO     Government Accountability Office
MES     Modernized Enumeration System
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security number
                                                                                   Appendix B

How the Social Security Administration Assigns
Original Social Security Numbers to Noncitizens
When a noncitizen applies for an original Social
Security number (SSN), he or she must complete,
sign and submit Form SS-5, Application for a Social
Security Card, to the Social Security Administration
(SSA) and provide acceptable documentary
evidence of (1) age, (2) identity, and (3) work
authorized lawful alien status and/or a valid nonwork reason.1

SSA personnel verify documents through (1) visual inspection, including the use of a
black light where appropriate and (2) verification with the Department of Homeland
Security (DHS), either on-line or manually. If documents do not appear valid, then SSA
personnel send Form G-845, Document Verification Request, along with photocopies of
the applicant-provided documents, to DHS. If documents appear valid, personnel query
DHS’ Alien Status Verification Index (ASVI) database2 to verify the immigration and
work status of noncitizens.3 If ASVI information is not available, SSA personnel send
Form G-845 to DHS. In addition, SSA personnel record noncitizens’ immigration
documents and the verification of these documents (either the ASVI verification number
or annotation of “G-845 verified”) on the SSN application.

SSA personnel enter SSN information into SSA’s Modernized Enumeration System
(MES). SSN applications awaiting verification of DHS immigration status are coded with
an “S” for suspect. After determining the validity of supporting evidentiary documents,
SSA personnel sign and date the SSN application and clear the application in MES.
Once certified and cleared, MES performs numerous automated edits to validate certain
applicant information. If the application passes these edits, SSA systems assign an
SSN, issue an SSN card, and establish a record in SSA’s information systems.4




1
    Program Operations Manual System (POMS) sections RM 00202.001A and RM 00203.001C.
2
  The ASVI on-line database is a part of DHS’ Systematic Alien Verification for Entitlements program, an
intergovernmental information-sharing initiative designed to aid various agencies in determining a
noncitizen’s immigration status.
3
 SSA employees have two additional sources to verify refugee and asylee status: the Department of
State Worldwide Refugee Admissions Processing System and the Executive Office for Immigration
Review.
4
  The Numident file houses records of SSN cards issued over an individual’s lifetime, as well as
identifying information such as age, place of birth, and parent’s names.


                                                   B-1
Description of Evidentiary Documents

Along with an SSN application, noncitizens must present two documents that establish
age, identity, and work authorized lawful alien status or a valid nonwork reason for an
SSN. If the DHS document is used to establish noncitizen status and age, the
noncitizen must provide another document, such as a passport or driver’s license, to
establish identity. An individual signing the SSN application on behalf of another (for
example, a parent for his/her child) must establish his/her own identity.5

DHS issues numerous documents that indicate the status and class of noncitizens.
Following is a description of the general evidence requirements (not all-inclusive)
submitted with original SSN applications.

Lawfully Admitted for Permanent Residence are lawful immigrants who are residing
permanently in the United States with the authorization of DHS. Acceptable evidence of
this status includes the I-551, Alien Registration Receipt Card, commonly known as the
“Green Card,” and I-688, Temporary Resident Card.6

Nonimmigrants are temporary lawful residents to whom DHS grants limited stay in the
United States for a specific purpose, such as foreign Government officials, visitors, and
students. DHS issues an I-94 Arrival/Departure Record to all documented noncitizens.7
DHS also issues employment authorization documents to certain nonimmigrants as
evidence of their authorization to work in the United States.8 SSA has additional SSN
documentation requirements for certain classes of nonimmigrants. For example, to be
eligible for an SSN, an F-1 post-secondary student must provide, in addition to evidence
of age and identity, an I-20 ID (Student) Copy, Certificate of Eligibility for Nonimmigrant
(F-1) Student Status, from an accredited school, a current I-94, and evidence of
authorization to work on-campus and full-time school attendance.9

Asylees, refugees, and parolees come to the United States because of persecution or
emergency conditions. Form I-94, with the proper annotations, is acceptable evidence
of aslyee, refugee or parolee status. In cases when such individuals have no
documentation other than his/her DHS document, SSA will accept such documentation
(an exception to the two document requirement).10



5
    POMS, section RM 00203.200A.
6
    POMS, section RM 00203.410.
7
    POMS, section RM 00203.450.
8
    POMS, section RM 00203.500.
9
    SSA Policy Instruction EM-02093.
10
     POMS, section RM 00203.460 and RM 00203.020.


                                               B-2
                                                                        Appendix C

Scope, Methodology, and Sample Appraisal
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System (MES) Transaction History File for March 2003. From this extract,
we identified a population of 2,502 noncitizens to whom SSA assigned original Social
Security numbers (SSN) for SSN applications processed by the Brooklyn Social
Security Card Center (BSSCC). From this population, we randomly selected and
reviewed a sample of 100 SSNs. For each of the sampled SSNs, we

   •   requested from SSA a microfiche copy of Form SS-5, Application for a Social
       Security Card, including all information recorded at the bottom of the form;

   •   determined whether SSA personnel followed applicable policies and procedures
       when processing the SSN application; and

   •   independently verified the applicant’s immigration status with the
       Department of Homeland Security (DHS). We verified the Alien registration
       number or Admission number via DHS’ Alien Status Verification Index (ASVI)
       database. Additionally, we manually verified with DHS those records where ASVI
       displayed exceptions or SSA personnel failed to record an evidence description
       on the SSN application. We did not conduct an independent assessment of the
       quality of DHS’ records.

As part of this audit, we also visited the BSSCC. We met with management and staff to
obtain their views on the Agency’s policies, procedures, and practices for processing
noncitizen SSN applications. We observed personnel processing 10 original noncitizen
SSN applications.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We relied primarily on MES to complete our review, and determined that the MES data
used in the report is sufficiently reliable given the audit objective and use of the data.
We conducted our work from May 2003 through February 2004 in accordance with
generally accepted government auditing standards.




                                          C-1
Table 1 shows our sample size, results, and appraisal.
Table 1: Results and Projection

                            SAMPLE ATTRIBUTE APPRAISAL
Total population of original SSNs assigned to noncitizens from SSN
                                                                     2,502
applications processed at the BSSCC
Sample size                                                           100

Number of instances in sample where BSSCC personnel did not comply
                                                                       15
with policy and procedures
Estimate of instances in population where BSSCC personnel did not
                                                                      375
comply with policy and procedures
Projection lower limit                                                239
Projection upper limit                                                551

Projection made at the 90-percent confidence level.




                                        C-2
                                                                      Appendix D

Recommendations from our Report Entitled Field
Offices’ Compliance with Policies and Procedures
When Processing Noncitizen Social Security
Number Applications (A-08-04-14005)
1. Reemphasize to field office (FO) personnel the importance of following all policies
   and procedures, including the use of black lights to detect counterfeit documents,
   when processing Social Security number (SSN) applications from noncitizens.

2. Conduct periodic studies to assess FO compliance with policies and procedures for
   processing noncitizen SSN applications and take corrective action as needed.

3. Consider Modernized Enumeration System enhancements that would prevent SSN
   assignment to noncitzens when FO personnel do not comply with policies and
   procedures.
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM                                                                     33325-24-1175


Date:      July 30, 2004                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Brooklyn Social Security Card Center's
           (BSSCC) Compliance with Policies and Procedures When Processing Noncitizen Social Security
           Number (SSN) Applications" (A-08-04-14061)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "BROOKLYN SOCIAL SECURITY CARD CENTER'S (BSSCC)
COMPLIANCE WITH POLICIES AND PROCEDURES WHEN PROCESSING
NONCITIZEN SOCIAL SECURITY NUMBER APPLICATIONS" (A-08-04-14061)


Thank you for the opportunity to comment on the draft report. We appreciate OIG’s continuing
efforts to evaluate the integrity of our enumeration process. We are pleased that the report
acknowledges our efforts to improve the accuracy of SSN applications and that the review found
no instances where noncitizens inappropriately obtained an SSN.

Since a number of the noncompliance issues identified for the BSSCC were the same as those
identified in the Field Office (Audit No. A-08-04-14005) enumeration compliance reports, we
will ensure that the BSSCC is included in any corrective action activities planned in response to
the recommendations made in those reports.

Some of the steps the Agency has already taken or has in progress to strengthen the integrity of
the enumeration process in the BSSCC and other field offices include:

   o Training— In April 2004, we conducted an Interactive Video Training session focusing
     on the identification of fraudulent documents, including the use of black lights to verify
     the various check points on the Department of Homeland Security’s (DHS) and other
     documents. We have made these procedures available online so they can be accessed
     easily by interviewing employees. We are currently revising Program Operations
     Manual System (POMS) instructions to clearly stress these procedures and policies in
     reviewing immigration documents, and we will release a reminder to FO personnel in
     July 2004 emphasizing the need to utilize all tools available for verifying documents.

   o Monitoring— as of October 2002, all SSA regional offices had plans in place to monitor
     FO compliance with the collateral verification requirements, such as reviewing samples
     of completed SS-5 applications. We have also included an assessment of FO staff
     compliance with verification requirements as part of our ongoing enumeration quality
     reviews. The published findings from these reviews are currently limited to addressing
     those enumeration failures classified as “critical errors” (a misassigned SSN that is either
     assignment of an SSN that belongs to someone else or a multiple SSN that is not cross-
     referred on the existing records) or “major errors” (errors that can result in an additional
     or incorrect action in subsequent enumeration transactions or claims actions because
     information on the applicant’s record is incorrect or incomplete). Based on the results of
     this review, we will provide an analysis and assessment of documentation failures in
     future reports. Finally, we continue to monitor compliance through our Comprehensive
     Integrity Review Process program and develop process improvements to address any
     identified weaknesses or errors.

       In addition to these ongoing reviews, the recently developed New York Region’s
       Modernized Enumeration System (MES) Workload Management Information application
       provides information on SS-5 applications from foreign-born individuals who were


                                               E-2
   assigned SSNs in one day, but whose immigration documents were subject to
   verification; US-born individuals over the age of one who were assigned SSNs in one
   day, but whose birth records were subject to verification; and individuals who reside
   outside the State or service area of the processing field office. The MES application
   serves as a valuable resource for managers to identify: 1) employees who may not be
   following current collateral verification procedures; 2) local weaknesses in the
   enumeration process; and 3) any SS-5 workloads that appear to be unusual for particular
   offices.

o Enhancements to the Modernized Enumeration System-- We are considering certain
  changes as suggested to the MES as part of our Long Term MES Enhancements
  Initiative. We will consider revising the evidence collection fields in MES to collect
  evidentiary data in specific fields, however, any identified modifications will have to be
  considered as part of our Information Technology prioritization process.

   In the interim, the New York Region has developed a front-end software program to
   improve FO compliance with the policies and procedures for processing SS-5
   applications. The SS-5 Assistant application assists FOs to comply with the collateral
   verification procedures by providing greater control over, and improving the accuracy of,
   SSN applications filed by noncitizens. We expect to release Version 2.0 of the SS-5
   Assistant in early fiscal year 2005. The new features of this version will: 1) serve as the
   front-end input system that will collect all necessary data in mandatory fields and
   propagate it to the current MES screens; 2) collect data in an intelligent manner as a data-
   driven system that will understand the policy requirements and facilitate capturing the
   mandated information from the user, include drop-down selections, and ensure the
   character lengths for certain fields are appropriate; and 3) automatically query the
   Systematic Alien Verification for Entitlements system of DHS for the user at the time the
   application is being entered (as the interface will require that verification is received)
   before permitting processing of the SS-5 application.

   We anticipate that the implementation of Release 2 of the SS-5 Assistant application will
   eliminate the noncompliance situations identified in the report.




                                           E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Ellen Justice, Auditor

   Susan Phillips, Auditor

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-08-04-14061.
.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
